APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Supreme Court of the State of
Oregon Denying Petition for Review
(August 27, 2020) ............................................... 1a
Opinion of the Court of Appeals of the State of
Oregon (April 1, 2020) ........................................ 3a
Judgement and Sentencing, Circuit Court of the
State of Oregon for the County of Multnomah
(July 8, 2016) ...................................................... 9a
Order on Motions in Limine
(January 30, 2017)............................................ 39a
UCJ Temporary Sentencing Order on All Felony
& Misdemeanor Counts (May 3, 2017) ............ 40a
RECONSIDERATION ORDER
Order of the Court of Appeals of the State of
Oregon Denying Petition for Reconsideration
(May 4, 2020) .................................................... 43a
OTHER DOCUMENTS
Indictment
(August 3, 2016) ............................................... 45a

App.1a
ORDER OF THE SUPREME COURT
OF THE STATE OF OREGON
DENYING PETITION FOR REVIEW
(AUGUST 27, 2020)
IN THE SUPREME COURT OF
THE STATE OF OREGON
________________________
STATE OF OREGON,

Plaintiff-Respondent,
Respondent on Review,
v.
MICHAEL AARON STRICKLAND, A/K/A
MICHAEL STRICKLAND,

Defendant-Appellant,
Petitioner on Review.
________________________
No. S067795
Court of Appeals A165019
Before: Martha L. WALTERS, Chief Justice,
Supreme Court.
Upon consideration by the court.
The court has considered the petition for review
and orders that it be denied.

App.2a
/s/ Martha L. Walters
Chief Justice, Supreme Court
cc: Susan G Howe
Mark J Geiger
tnb

App.3a
OPINION OF THE COURT OF APPEALS
OF THE STATE OF OREGON
(APRIL 1, 2020)
IN THE COURT OF APPEALS OF THE
STATE OF OREGON
________________________
STATE OF OREGON,

Plaintiff-Respondent,
v.
MICHAEL AARON STRICKLAND, A/K/A
MICHAEL STRICKLAND,

Defendant-Appellant.
________________________
A165019
Multnomah County Circuit Court 16CR41718
Before: ARMSTRONG, Presiding Judge, and
TOOKEY, Judge, and SHORR, Judge.
ARMSTRONG, P. J.
Defendant appeals a judgment of conviction, after
a bench trial, for ten counts each of menacing and
unlawful use of a weapon, and one count of disorderly
conduct. The charges arose out of an incident at a
demonstration in downtown Portland at which defendant brandished a handgun at a crowd when he felt
threatened. Defendant raises six assignments of error.
We write to address only defendant’s contention that

App.4a
the trial court erred in granting the state’s motion in
limine to exclude as irrelevant evidence of a prior
incident, in which defendant was injured by a person
whom he had surreptitiously filmed. Defendant contends that the evidence was relevant to show his
state of mind in support of his contention that he
brandished the handgun in self-defense. We review
the trial court’s ruling excluding the disputed evidence
for legal error, State v. Titus, 328 Or 475, 481, 982
P2d 1133 (1999) (“[W]e must review determinations
of relevance for errors of law.”), conclude that the trial
court correctly excluded the evidence, and therefore
affirm.
The facts are undisputed. Defendant attended a
public demonstration in Portland with a video camera
and filmed speakers and demonstrators. He openly
carried a semi-automatic handgun in a hip holster. The
state presented evidence that defendant was known
to several of the demonstrators, and they decided to
confront him and tell him to leave the demonstration.
Four demonstrators wearing bandanas over their
faces approached defendant aggressively, calling
him a racist and telling him in strong language to get
away. As defendant backed away, the demonstrators
continued to move toward him. One of the demonstrators noticed defendant’s handgun and pushed defendant
away. Defendant responded that he was not a racist
and told the person, “Take your hands off me.”
Defendant continued to move backwards, holding
his camera in one hand and twice placing his other
hand on the handgun, which was holstered at his hip,
causing people in the crowd to cry out. A person
carrying a large news camera stepped between defendant and the four bandanaed demonstrators, creating

App.5a
some distance between them as defendant continued
to back away. In the conduct that gave rise to the
instant charges, defendant took the handgun from its
holster, held it with two hands, and scanned the crowd
with it from left to right. After placing the handgun
back in its holster, defendant continued to engage with
and speak to those in the crowd. Defendant ultimately
walked away from the demonstration and was arrested.
Based on his wielding of the handgun, defendant was
charged with 10 counts of menacing and unlawful use
of a weapon and one count of disorderly conduct.
Before trial, the prosecution anticipated that
defendant would seek to introduce evidence—in support
of a defense of self-defense—that he had been involved
in an altercation the year before in which his arm
had been broken after he had surreptitiously filmed
a person at a restaurant. The person involved in that
altercation had no connection to the demonstration
or to the conduct charged in this case. The state
asserted that evidence of the earlier event was
irrelevant to the charged offenses and filed a motion
in limine to exclude it. The trial court agreed and
granted the state’s motion.
On appeal, defendant asserts that the evidence
of the prior incident was relevant to show that he
acted in self-defense in brandishing the handgun. ORS
161.209 provides that a person is justified in using
physical force against another person for self-defense
“from what the person reasonably believes
to be the use or imminent use of unlawful
physical force, and the person may use a
degree of force which the person reasonably
believes to be necessary for the purpose.”

App.6a
Defendant contends that the evidence of the prior
incident would show “what force defendant reasonably believed was necessary to defend himself in the
moment,” and would have helped the trier of fact
understand why defendant feared for his safety and
felt the need to protect himself by brandishing a
handgun.
Defendant correctly notes that the threshold for
relevance of evidence is low. See OEC 401 (relevant
evidence is evidence “having any tendency to make
the existence of any fact that is of consequence to the
determination of the action more probable or less
probable than it would be without it”). Evidence is
admissible if it “can support a reasonable inference
that is material to the case.” State v. Turnidge
(S059156), 359 Or 507, 512-13, 373 P3d 138 (2016).
Here, we conclude that the disputed evidence does
not meet that low threshold.
The legal standard for assessing the reasonableness of a person’s belief about the need for force or
the extent of force necessary turns on an objective
evaluation of the circumstances in which physical force
has been used or threatened, and not on the personal
perceptions of the individual defendant. State v.
Bassett, 234 Or App 259, 228 P3d 590, rev den, 348
Or 461 (2010) (“A defendant’s subjective ‘honest belief’
that a perceived threat is great or imminent is not
enough to justify” the use of self-defense.). See also
State v. Oneill, 256 Or App 537, 545-46, 303 P3d 944,
rev den, 354 Or 342 (2013) (in assessing a defendant’s
reasonable belief in a choice-of-evils defense, “reasonableness” is an objective standard that is measured
from the perspective of “a person of ordinary intelligence and understanding” and does not take into

App.7a
account “the unique history or mental characteristics of
any particular defendant”). That objective standard
requires that we assess how a reasonable person would
have assessed the circumstances in which defendant
found himself at the time that he brandished the
weapon. Defendant’s evidence of his past experience
was offered to show how he, personally, might have
perceived the events and why he, personally, felt
fearful, but it was not relevant to the defense of selfdefense.
We recently addressed the issue of the standard
for proof for self-defense in State v. Hollingsworth, 290
Or App 121, 415 P3d 83 (2018). There, believing that
an intruder was in his apartment, the defendant
fired a gun, and the bullet passed through the wall
into a neighbor’s apartment where a family slept.
The defendant, who was charged with unlawful use
of a weapon and reckless endangerment, asserted
that he had acted in self-defense. Over the defendant’s objection, the state introduced evidence of the
defendant’s past calls to 9-1-1 dispatchers and past
interactions with police to refute the defendant’s
claim that he had acted in self-defense. On appeal,
we concluded that the trial court had erred in
admitting the evidence for that purpose, because, although the evidence of the defendant’s 9-1-1 calls
and interactions with police might have explained
what the defendant, personally, believed at the time
that he fired the gun, it was not relevant or “probative
one way or another of the circumstances that defendant confronted that night and, thus, did not bear on
whether a reasonable person, in the same circumstances, would perceive the force used by defendant to be
necessary.” Id. at 129; cf. State v. Jones, 296 Or App

App.8a
553, 576, 439 P3d 485, rev den , 365 Or 557 (2019)
(“[T]he ‘reasonableness’ question when it comes to a
self-defense claim is whether the circumstances as
known to the defendant would lead a reasonable person
who experiences those same circumstances to perceive
the use of force to be necessary.” (Emphasis in original.)).
Here, as in Hollingsworth, defendant’s past experience was not probative of the claim of self-defense
that defendant asserted. The person with whom defendant had been involved in the earlier altercation was not
one of the demonstrators who aggressively approached
defendant. See State v. Scott, 265 Or App 542, 335
P3d 1283 (2014) (evidence that the defendant had previously been assaulted by the complainant was relevant
to the defendant’s claim that he acted in self-defense).
The prior confrontation had taken place outside of
a restaurant after defendant had filmed a person
surreptitiously, not at a public gathering where defendant filmed in the open. The only commonality between
the two circumstances was that defendant had been
filming. Although defendant’s past experience might
have caused him to fear for his safety, as in Hollingsworth, it did not make more or less probable “the
existence of any fact that is of consequence to the
determination” of the claim of self-defense—viz.,
whether a reasonable person in defendant’s circumstance at the time that he brandished the weapon
would have believed that he was at risk of imminent
use of unlawful physical force and whether brandishing
the weapon was the degree of force reasonably necessary for defendant’s self-defense. The trial court therefore did not err in excluding the evidence as irrelevant.
Affirmed.

App.9a
JUDGEMENT AND SENTENCING,
CIRCUIT COURT OF THE STATE OF OREGON
FOR THE COUNTY OF MULTNOMAH
(JULY 8, 2016)
IN THE CIRCUIT COURT OF THE STATE OF
OREGON FOR THE COUNTY OF MULTNOMAH
________________________
STATE OF OREGON,

Plaintiff,
v.
MICHAEL AARON STRICKLAND,

Defendant.
________________________
No. 16CR41718
Case File Date: 07/08/2016
District Attorney File #: 2343964-1C
DEFENDANT
True Name: Michael Aaron Strickland
Date of Birth: ■■■■■■■
Sex: Male
State Identification No (SID): 18972761OR
Fingerprint Control No (FPN): JMUL116837817
Alias(es): Michael Strickland

App.10a
HEARING
Proceeding Date: 05/03/2017
Court Reporter: Recording, FTR
Defendant appeared in person and was not in custody.
The defendant was represented by Attorney(s) JASON
GLENN SHORT, OSB Number 003860, Attorney(s)
Christopher M Trotter, OSB Number 135071. Plaintiff
appeared by and through Attorney(s) Kate Molina,
OSB Number 123989, Attorney(s) TODD T JACKSON,
OSB Number 114240.

COUNT(S)
It is adjudged that the defendant has been convicted on the following count(s):
COUNT 1:
UNLAWFUL USE OF A WEAPON-FIREARM
Count number 1, Unlawful Use of a WeaponFirearm, 166.220, Felony Class C, committed on or
about 07/07/2016. Conviction is based upon a Court
Verdict of Guilty on 02/10/2017.
Sentencing Guidelines
The Crime Severity Classification (CSC) on Count
Number 1 is 6 and the Criminal History Classification
(CHC) is I.
This sentence is pursuant to the following special
factors:
•

Gun minimum is suspended under ORS 161.610
(5)((b) as stated on the record.

App.11a
The court finds substantial and compelling reason
for a Downward Dispositional Departure, as stated on
the record. This departure is pursuant to the following
aggravating or mitigating factor(s):
Probation
Defendant is sentenced to Supervised Probation
for a period of 3 year(s) and shall be subject to the
following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following
Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Confiscate/destroy weapon and ammunition.

•

Not possess weapons, firearms or ammunition.

•

No personal contact with the victims, Benjamin
Kerensa or Malcolm Chaddock.

•

Defendant cannot film/video record any person
before January 1, 2018. After January 1, 2018,
defendant may film/video record people only
with prior permission of the P.O.

•

All classes/counseling as directed by P.O.

•

Defendant should be closely supervised, at least
initially. Defendant should NOT be supervised
by reduced supervision team.

App.12a
Statutory Provisions
Defendant is ordered to submit blood or buccal
sample and thumbprint pursuant to ORS 137.076.
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court
Type

Amount

Actual Owed

Fine-Felony

$200.00

$200.00

Total

$200.00

$200.00

COUNT 2:
MENACING
Count number 2, Menacing, 163.190, Misdemeanor
Class A, committed on or about 07/07/2016. Conviction
is based upon a Court Verdict of Guilty on 02/10/2017.
Suspended Imposition of Sentence
Imposition of sentence is suspended.
Probation
Defendant is placed on Supervised Probation for
a period of 3 year(s) and shall be subject to the following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).

App.13a
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Perform 240 hours of community service by
June 1, 2018.

•

Conditions concurrent with Count 1.

Jail as a Condition of Probation
Defendant is confined to jail for 40 day(s).
Defendant is to report to TSI-MCSO by 05/03/2017.
Defendant may receive credit for time served. TSI jail
sentence to begin after 8/1/17. Weekends are OK.
The Defendant may be considered by the supervisory authority for any form of alternative sanction
authorized by ORS 423.478, and the defendant shall
pay any required per diem fees.
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount Actual Owed

Fine-Misdemeanor

$100.00

$100.00

Total

$100.00

$100.00

App.14a
COUNT 3:
UNLAWFUL USE OF A WEAPON-FIREARM
Count number 3, Unlawful Use of a WeaponFirearm, 166.220, Felony Class C, committed on or
about 07/07/2016. Conviction is based upon a Court
Verdict of Guilty on 02/10/2017.
Sentencing Guidelines
The Crime Severity Classification (CSC) on Count
Number 3 is 6 and the Criminal History Classification
(CHC) is I.
This sentence is pursuant to the following special
factors:
•

This is a Presumptive Sentence

Probation
Defendant is sentenced to Supervised Probation
for a period of 3 year(s) and shall be subject to the
following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Statutory Provisions
Defendant is ordered to submit blood or buccal
sample and thumbprint pursuant to ORS 137.076.

App.15a
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Felony

$200.00

$200.00

Total

$200.00

$200.00

COUNT 4:
MENACING
Count number 4, Menacing, 163.190, Misdemeanor
Class A, committed on or about 07/07/2016. Conviction
is based upon a Court Verdict of Guilty on 02/10/2017.
Suspended Imposition of Sentence
Imposition of sentence is suspended.
Probation
Defendant is placed on Supervised Probation for
a period of 3 year(s) and shall be subject to the following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

App.16a
•

Conditions concurrent with Count 1.

Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Misdemeanor

$100.00

$100.00

Total

$100.00

$100.00

COUNT 5:
UNLAWFUL USE OF A WEAPON-FIREARM
Count number 5, Unlawful Use of a WeaponFirearm, 166.220, Felony Class C, committed on or
about 07/07/2016. Conviction is based upon a Court
Verdict of Guilty on 02/10/2017.
Sentencing Guidelines
The Crime Severity Classification (CSC) on Count
Number 5 is 6 and the Criminal History Classification
(CHC) is I.
This sentence is pursuant to the following special
factors:
•

This is a Presumptive Sentence

Probation
Defendant is sentenced to Supervised Probation
for a period of 3 year(s) and shall be subject to the
following conditions of Probation:

App.17a
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Statutory Provisions
Defendant is ordered to submit blood or buccal
sample and thumbprint pursuant to ORS 137.076.
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Felony

$200.00

$200.00

Total

$200.00

$200.00

COUNT 6:
MENACING
Count number 6, Menacing, 163.190, Misdemeanor
Class A, committed on or about 07/07/2016. Conviction
is based upon a Court Verdict of Guilty on 02/10/2017.
Suspended Imposition of Sentence
Imposition of sentence is suspended.

App.18a
Probation
Defendant is placed on Supervised Probation for
a period of 3 year(s) and shall be subject to the following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Misdemeanor

$100.00

$100.00

Total

$100.00

$100.00

COUNT 7:
UNLAWFUL USE OF A WEAPON-FIREARM
Count number 7, Unlawful Use of a WeaponFirearm, 166.220, Felony Class C, committed on or
about 07/07/2016. Conviction is based upon a Court
Verdict of Guilty on 02/10/2017.

App.19a
Sentencing Guidelines
The Crime Severity Classification (CSC) on Count
Number 7 is 6 and the Criminal History Classification
(CHC) is I.
This sentence is pursuant to the following special
factors:
•

This is a Presumptive Sentence of Probation:

Probation
Defendant is sentenced to Supervised Probation
for a period of 3 year(s) and shall be subject to the
following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Statutory Provisions
Defendant is ordered to submit blood or buccal
sample and thumbprint pursuant to ORS 137.076.
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.

App.20a
Type

Amount

Actual Owed

Fine-Felony

$200.00

$200.00

Total

$200.00

$200.00

COUNT 8:
MENACING
Count number 8, Menacing, 163.190, Misdemeanor
Class A, committed on or about 07/07/2016. Conviction
is based upon a Court Verdict of Guilty on 02/10/2017.
Suspended Imposition of Sentence
Imposition of sentence is suspended.
Probation
Defendant is placed on Supervised Probation for
a period of 3 year(s) and shall be subject to the following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Monetary Terms
Defendant shall be required to pay the following
amounts on this count:

App.21a
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Misdemeanor

$100.00

$100.00

Total

$100.00

$100.00

COUNT 9:
UNLAWFUL USE OF A WEAPON-FIREARM
Count number 9, Unlawful Use of a WeaponFirearm, 166.220, Felony Class C, committed on or
about 07/07/2016. Conviction is based upon a Court
Verdict of Guilty on 02/10/2017.
Sentencing Guidelines
The Crime Severity Classification (CSC) on Count
Number 9 is 6 and the Criminal History Classification
(CHC) is I.
This sentence is pursuant to the following special
factors:
•

This is a Presumptive Sentence

Probation
Defendant is sentenced to Supervised Probation
for a period of 3 year(s) and shall be subject to the
following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:

App.22a
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Statutory Provisions
Defendant is ordered to submit blood or buccal
sample and thumbprint pursuant to ORS 137.076.
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Felony

$200.00

$200.00

Total

$200.00

$200.00

COUNT 10:
MENACING
Count number 10, Menacing, 163.190, Misdemeanor Class A, committed on or about 07/07/2016. Conviction is based upon a Court Verdict of Guilty on
02/10/2017.
Suspended Imposition of Sentence
Imposition of sentence is suspended.
Probation
Defendant is placed on Supervised Probation for
a period of 3 year(s) and shall be subject to the following conditions of Probation:

App.23a
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Misdemeanor

$100.00

$100.00

Total

$100.00

$100.00

COUNT 11:
UNLAWFUL USE OF A WEAPON-FIREARM
Count number 11, Unlawful Use of a WeaponFirearm, 166.220, Felony Class C, committed on or
about 07/07/2016. Conviction is based upon a Court
Verdict of Guilty on 02/10/2017.
Sentencing Guidelines
The Crime Severity Classification (CSC) on Count
Number 11 is 6 and the Criminal History Classification
(CHC) is I.

App.24a
This sentence is pursuant to the following special
factors:
•

This is a Presumptive Sentence

Probation
Defendant is sentenced to Supervised Probation
for a period of 3 year(s) and shall be subject to the
following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Statutory Provisions
Defendant is ordered to submit blood or buccal
sample and thumbprint pursuant to ORS 137.076.
Fees and Assessments: Payable to the Court.
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Felony

$200.00

$200.00

Total

$200.00

$200.00

App.25a

Count 12: Menacing
Count number 12, Menacing, 163.190, Misdemeanor Class A, committed on or about 07/07/2016. Conviction is based upon a Court Verdict of Guilty on
02/10/2017.
Suspended Imposition of Sentence
Imposition of sentence is suspended.
Probation
Defendant is placed on Supervised Probation for
a period of 3 year(s) and shall be subject to the following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.

App.26a
Type

Amount

Actual Owed

Fine-Misdemeanor

$100.00

$100.00

Total

$100.00

$100.00

COUNT 13:
UNLAWFUL USE OF A WEAPON-FIREARM
Count number 13, Unlawful Use of a WeaponFirearm, 166.220, Felony Class C, committed on or
about 07/07/2016. Conviction is based upon a Court
Verdict of Guilty on 02/10/2017.
Sentencing Guidelines
The Crime Severity Classification (CSC) on Count
Number 13 is 6 and the Criminal History Classification
(CHC) is I.
This sentence is pursuant to the following special
factors:
•

This is a Presumptive Sentence

Probation
Defendant is sentenced to Supervised Probation
for a period of 3 year(s) and shall be subject to the
following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following
Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:

App.27a
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Statutory Provisions
Defendant is ordered to submit blood or buccal
sample and thumbprint pursuant to ORS 137.076.
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Felony

$200.00

$200.00

Total

$200.00

$200.00

COUNT 14:
MENACING
Count number 14, Menacing, 163.190, Misdemeanor Class A, committed on or about 07/07/2016. Conviction is based upon a Court Verdict of Guilty on
02/10/2017.
Suspended Imposition of Sentence
Imposition of sentence is suspended.
Probation
Defendant is placed on Supervised Probation for
a period of 3 year(s) and shall be subject to the following conditions of Probation:

App.28a
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Misdemeanor

$100.00

$100.00

Total

$100.00

$100.00

COUNT 15:
UNLAWFUL USE OF A WEAPON-FIREARM
Count number 15, Unlawful Use of a WeaponFirearm, 166.220, Felony Class C, committed on or
about 07/07/2016. Conviction is based upon a Court
Verdict of Guilty on 02/10/2017.
Sentencing Guidelines
The Crime Severity Classification (CSC) on Count
Number 15 is 6 and the Criminal History Classification
(CHC) is I.

App.29a
This sentence is pursuant to the following special
factors:
•

This is a Presumptive Sentence

Probation
Defendant is sentenced to Supervised Probation
for a period of 3 year(s) and shall be subject to the
following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Statutory Provisions
Defendant is ordered to submit blood or buccal
sample and thumbprint pursuant to ORS 137.076.
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Felony

$200.00

$200.00

Total

$200.00

$200.00

App.30a

COUNT 16:
MENACING
Count number 16, Menacing, 163.190, Misdemeanor Class A, committed on or about 07/07/2016. Conviction is based upon a Court Verdict of Guilty on
02/10/2017.
Suspended Imposition of Sentence
Imposition of sentence is suspended.
Probation
Defendant is placed on Supervised Probation for
a period of 3 year(s) and shall be subject to the following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.

App.31a
Type

Amount

Actual Owed

Fine-Misdemeanor

$100.00

$100.00

Total

$100.00

$100.00

COUNT 17:
UNLAWFUL USE OF A WEAPON-FIREARM
Count number 17, Unlawful Use of a WeaponFirearm, 166.220, Felony Class C, committed on or
about 07/07/2016. Conviction is based upon a Court
Verdict of Guilty on 02/10/2017.
Sentencing Guidelines
The Crime Severity Classification (CSC) on Count
Number 17 is 6 and the Criminal History Classification
(CHC) is I.
This sentence is pursuant to the following special
factors:
•

This is a Presumptive Sentence

Probation
Defendant is sentenced to Supervised Probation
for a period of 3 year(s) and shall be subject to the
following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:

App.32a
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Statutory Provisions
Defendant is ordered to submit blood or buccal
sample and thumbprint pursuant to ORS 137.076.
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Felony

$200.00

$200.00

Total

$200.00

$200.00

COUNT 18:
MENACING
Count number 18, Menacing, 163.190, Misdemeanor Class A, committed on or about 07/07/2016. Conviction is based upon a Court Verdict of Guilty on
02/10/2017.
Suspended Imposition of Sentence
Imposition of sentence is suspended.
Probation
Defendant is placed on Supervised Probation for
a period of 3 year(s) and shall be subject to the following conditions of Probation:

App.33a
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Misdemeanor

$100.00

$100.00

Total

$100.00

$100.00

COUNT 19:
UNLAWFUL USE OF A WEAPON-FIREARM
Count number 19, Unlawful Use of a WeaponFirearm, 166.220, Felony Class C, committed on or
about 07/07/2016. Conviction is based upon a Court
Verdict of Guilty on 02/10/2017.
Sentencing Guidelines
The Crime Severity Classification (CSC) on Count
Number 19 is 6 and the Criminal History Classification
(CHC) is I.

App.34a
This sentence is pursuant to the following special
factors:
•

This is a Presumptive Sentence

Probation
Defendant is sentenced to Supervised Probation
for a period of 3 year(s) and shall be subject to the
following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

Statutory Provisions
Defendant is ordered to submit blood or buccal
sample and thumbprint pursuant to ORS 137.076.
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.

App.35a
Type

Amount

Actual Owed

Fine-Felony

$200.00

$200.00

Total

$200.00

$200.00

COUNT 20:
MENACING
Count number 20, Menacing, 163.190, Misdemeanor Class A, committed on or about 07/07/2016. Conviction is based upon a Court Verdict of Guilty on
02/10/2017.
Suspended Imposition of Sentence
Imposition of sentence is suspended.
Probation
Defendant is placed on Supervised Probation for
a period of 3 year(s) and shall be subject to the following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

•

Conditions concurrent with Count 1.

App.36a
Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Misdemeanor

$100.00

$100.00

Total

$100.00

$100.00

COUNT 21:
DISORDERLY CONDUCT IN THE SECOND DEGREE
Count number 21, Disorderly Conduct in the
Second Degree, 166.025, Misdemeanor Class B, committed on or about 07/07/2016. Conviction is based
upon a Court Verdict of Guilty on 02/10/2017.
Suspended Imposition of Sentence
Imposition of sentence is suspended.
Probation
Defendant is placed on Supervised Probation for
a period of 3 year(s) and shall be subject to the following conditions of Probation:
Defendant is subject to all general conditions of
probation (ORS 137.540).
Furthermore, Defendant is subject to the following Special Conditions of Probation (ORS 137.540(2)):
Defendant shall:
•

Be assigned to Judge Thomas Ryan for judicial
supervision of probation.

App.37a
•

Conditions concurrent with Count 1.

Monetary Terms
Defendant shall be required to pay the following
amounts on this count:
Fees and Assessments: Payable to the Court.
Type

Amount

Actual Owed

Fine-Misdemeanor

$100.00

$100.00

Total

$100.00

$100.00

If convicted of a felony or a crime involving
domestic violence, you may lose the right to buy, sell,
transport, receive, or possess a firearm, ammunition,
or other weapons in both personal and professional
endeavors pursuant to ORS 166.250, ORS 166.291,
ORS 166.300, and/or 18 USC 922(g).
MONEY AWARD
Judgment Creditor: State of Oregon
Judgment Debtor: Michael Aaron Strickland
Payees are to be paid as ordered under Monetary
Terms.
Defendant is ordered to pay the following monetary totals, including restitution or compensatory fine
amounts stated above, which are listed in the Money
Award portion of this document:

App.38a
Type

Amount Owed

Fine – Felony

$2,000.00

Fine – Misdemeanor

$1,100.00

Total

$3,100.00

The court may increase the total amount owed
by adding collection fees and other assessments. These
fees and assessments may be added without further
notice to the defendant and without further court order.
Subject to amendment of a judgment under ORS
137.107, money required to be paid as a condition of
probation remains payable after revocation of probation
only if the amount is included in the money award
portion of the judgment document, even if the amount
is referred to in other parts of the judgment document.
Any financial obligation(s) for conviction(s) of a
violation, which is included in the Money Award,
creates a judgment lien.
Payment Schedule
Payment of the fines, fees, assessments, and/or
attorney’s fees noted in this and any subsequent
Money Award shall be scheduled by the clerk of the
court pursuant to ORS 161.675.
Payable to:
Multnomah County Circuit Court
1021 SW Fourth Avenue
Portland, Oregon 97204
P: 503-988-3235, option 3
F: http://courts.oregon.gov/multnomah
/s/ Tom Ryan
Circuit Court Judge

App.39a
ORDER ON MOTIONS IN LIMINE
(JANUARY 30, 2017)
IN THE CIRCUIT COURT OF THE STATE OF
OREGON FOR THE COUNTY OF MULTNOMAH
________________________
STATE OF OREGON,

Plaintiff,
v.
MICHAEL AARON STRICKLAND,

Defendant.
________________________
No. 16CR41718
Before: Thomas RYAN, Judge.
1. State’s Motion to exclude evidence of unrelated
prior altercation is granted, but the defendant may
re-raise the issue outside the presence of the jury at
trail, if defense wishes to do so.
2. Defendant’s motion in limine for a language
order is denied, for reasons put on record today.
3. The state motion to exclude the testimony of
Sergeant Schell is granted, but the state is to have
him available by phone.
/s/ Thomas Ryan
Judge
DATE SIGNED: 1/30/2017

App.40a
UCJ TEMPORARY SENTENCING ORDER ON
ALL FELONY & MISDEMEANOR COUNTS
(MAY 3, 2017)
IN THE CIRCUIT COURT OF THE STATE OF
OREGON FOR MULTNOMAH COUNTY
________________________
STATE OF OREGON,

Plaintiff,
v.
STRICKLAND, MICHAEL AARON,

Defendant.
________________________
Case No. 16CR41718
DA No. 2343964-1C
FTR
Clerk
Deputy District Attorney:
K. Molina, T. Jackson
Bar No. 123989, 114240
Defense Attorney:
J. Short, C. Trotter
Bar No. 003860, 135071
Defendant Appearance: In Person Out of Custody
Representation Status: Privately Retained

App.41a
The Court determines that the defendant is convicted
of the below listed count(s).
Count: 1
Offense: UUW (Firearm)
Date of Incident: 7/7/16
Guilty based upon: Court Trial
Date of Guilty Finding 2/10/17
Statutory Requirements:
DNA Blood Draw/Buccal Sample
SENTENCE GUIDELINES
Crime Severity 6
Criminal History I
Presumptive Sentence
Departure Sentence
Special Factors:
Gun minimum is suspended under
ORS 161.610(5)(b)
Dispositional
Down
By Stipulation
Departure Reasons: as stated on the record
PROBATION
Type: Supervised
Duration: 3 years
The following special conditions of probation are
imposed:
Probation Judge (if specified) Ryan

App.42a
Other
➢ Def. should be closely suspended at least
initially.
➢ Def. should not be sup. By the reduced supervision team.
➢ All classes/counseling as directed by P.O.
➢ Do not possess firearm, ammunition weapon.
➢ Def. cannot film/video any person before 1/1/18
after 1/1/18, Def. may film with prior permission
of P.O.
No Contact Victim
Benjamin Kerensa, Malcolm Chaddock
MONEY AWARD
Fine $ 200
PAYMENT TERMS:
Full payment of all financial obligations is due
within 30 days of the date of this judgment unless a
payment is authorized by the court collections unit,
probation officer, or post prison supervision officer. The
security deposit shall be applied to financial obligations ordered in this and any other circuit court case
after satisfaction of any and all orders directing that
the deposit be applied to outstanding
/s/ Thomas Ryan
Judge (Signature)
Dated: 5/3/17

App.43a
ORDER OF THE COURT OF APPEALS
OF THE STATE OF OREGON DENYING
PETITION FOR RECONSIDERATION
(MAY 4, 2020)
IN THE COURT OF APPEALS OF THE
STATE OF OREGON
________________________
STATE OF OREGON,

Plaintiff-Respondent,
v.
MICHAEL AARON STRICKLAND, A/K/A
MICHAEL STRICKLAND,

Defendant-Appellant.
________________________
No A 165019
Multnomah County Circuit Court No. 16CR41718
Court of Appeals No. A165019
Before: Rex ARMSTRONG, Presiding Judge.
Appellant petitions for reconsideration of the
court’s decision dated April 1, 2020. The court has
considered the petition and orders that the petition
is denied.
The Petition for reconsideration is denied.

App.44a
/s/ Rex Armstrong
Presiding Judge
5/4/2020 7:26 AM
c:

Mark J Geiger
Susan G Howe

App.45a
INDICTMENT
(AUGUST 3, 2016)
IN THE CIRCUIT COURT OF THE STATE OF
OREGON FOR THE COUNTY OF MULTNOMAH
________________________
STATE OF OREGON,

Plaintiff,
v.
MICHAEL AARON STRICKLAND DOB: ■■■■■■■,

Defendant.
________________________
No. 16-CR-41718
DA #: 2343964-1
Crime Report PP 16-218154
MCJRP ELIGIBLE
Indictment for Violation of
ORS 166.220 (1,3,5,7,9,11, 13, 15,11,19)
ORS 163.190 (2,4,6,8,10,12,14,16,18,20)
ORS 166.025 (21)
The above-named defendant(s) are accused by the
Grand Jury of Multnomah County, State of Oregon,
by this indictment of crime(s) of COUNT 1,3,5,7,9,
11,13,15,17,19–UNLAWFUL USE OF A WEAPON
WITH A FIREARM, COUNT 2,4,6,8,10,12,14,16,18,20–
MENACING, COUNT 21-DISORDERLY CONDUCT
IN THE SECOND DEGREE, committed as follows:

App.46a
COUNT 1
UNLAWFUL USE OF A WEAPON WITH A FIREARM
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
attempt to use, carry with intent to use and possess
with intent to use unlawfully against another person,
to wit: a balding male wearing a black shirt and dark
pants, a firearm, a dangerous and deadly weapon,
contrary to the statutes in such cases made and provided and against the peace and dignity of the State
of Oregon,
The state further alleges that during the commission of this felony, the defendant(s) used and
threatened the use of a firearm.
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 2
MENACING
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
and intentionally attempt to place another person, to
wit: a balding male wearing a black shirt and dark
pants, in fear of imminent serious physical injury,
contrary to the statutes in such cases made and provided and against the peace and dignity of the State
of Oregon,

App.47a
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character at the conduct alleged in the other
counts of this charging instrument.

COUNT 3
UNLAWFUL USE OF A WEAPON WITH FIREARM
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
attempt to use, carry with intent to use and possess
with intent to use unlawfully against another person,
to wit: a male wearing a black hooded top and dark
pants with a blue backpack, a firearm, a dangerous
and deadly weapon, contrary to the statutes in such
cases made and provided and against the peace and
dignity of the State of Oregon,
The state further alleges that during the commission of this felony, the defendant(s) used and
threatened the use of a firearm.
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

App.48a
COUNT 4
MENACING
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
and intentionally attempt to place another person, to
wit: a male wearing a black hooded top and dark
pants with a blue backpack, in fear of imminent serious
physical injury, contrary to the statutes in such cases
made and provided and against the peace and dignity
of the State of Oregon,
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 5
UNLAWFUL USE OF A WEAPON WITH A FIREARM
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
attempt to use, carry with intent to use and possess
with intent to use unlawfully against another person,
to wit: a male with dark hair, black shirt, and tan
pants wearing a scarf around his neck, a firearm, a
dangerous and deadly weapon, contrary to the statutes
in such cases made and provided and against the
peace and dignity of the State of Oregon,
The state further alleges that during the commission of this felony, the defendant(s) used and
threatened the use of a firearm.

App.49a
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 6
MENACING
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
and intentionally attempt to place another person, to
wit: a male with dark hair, black shirt, and tan pants
wearing a scarf around his neck, in fear of imminent
serious physical injury, contrary to the statutes in
such cases made and provided and against the peace
and dignity of the State of Oregon,
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.
COUNT 7
UNLAWFUL USE OF A WEAPON WITH A FIREARM
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
attempt to use, carry with intent to use and possess
with intent to use unlawfully against another person,
to wit: a male with a large video camera and backpack

App.50a
with the words LiveU on the back, a firearm, a dangerous and deadly weapon, contrary to the statutes in
such cases made and provided and against the peace
and dignity of the State of Oregon,
The state further alleges that during the commission of this felony, the defendant(s) used and
threatened the use of a firearm.
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 8
MENACING
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
and intentionally attempt to place another person, to
wit: a male with a large video camera and backpack
with the words LiveU on the back, in fear of imminent
serious physical injury, contrary to the statutes in
such cases made and provided and against the peace
and dignity of the State of Oregon,
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

App.51a
COUNT 9
UNLAWFUL USE OF A WEAPON WITH A FIREARM
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
attempt to use, carry with intent to use and possess
with intent to use unlawfully against another person,
to wit: a female with a black top, black skirt, and
black cloth over her mouth, a firearm, a dangerous
and deadly weapon, contrary to the statutes in such
cases made and provided and against the peace and
dignity of the State of Oregon,
The state further alleges that during the commission of this felony, the defendant(s) used and
threatened the use of a firearm.
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 10
MENACING
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
and intentionally attempt to place another person, to
wit: a female with a black top, black skirt, and black
cloth over her mouth, in fear of imminent serious
physical injury, contrary to the statutes in such cases
made and provided and against the peace and dignity
of the State of Oregon,

App.52a
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 11
Unlawful Use of a Weapon with a Firearm
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
attempt to use, carry with intent to use and possess
with intent to use unlawfully against another person,
to wit: a male with a green top, dark backpack, and
white mask on his face, a firearm, a dangerous and
deadly weapon, contrary to the statutes in such cases
made and provided and against the peace and dignity
of the State of Oregon,
The state further alleges that during the commission of this felony, the defendant(s) used and
threatened the use of a firearm.
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

App.53a
COUNT 12
MENACING
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
and intentionally attempt to place another person, to
wit: a male with a green top, dark backpack, and white
mask on his face, in fear of imminent serious physical
injury, contrary to the statutes in such cases made
and provided and against the peace and dignity of
the State of Oregon,
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 13
UNLAWFUL USE OF A WEAPON WITH A FIREARM
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
attempt to use, carry with intent to use and possess
with intent to use unlawfully against another person,
to wit: a male wearing jeans, a dark top, a backpack,
a green cloth on his face, and a multicolor mask on
top of his head, a firearm, a dangerous and deadly
weapon, contrary to the statutes in such cases made
and provided and against the peace and dignity of
the State of Oregon,

App.54a
The state further alleges that during the commission of this felony, the defendant(s) used and
threatened the use of a firearm.
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 14
MENACING
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
and intentionally attempt to place another person, to
wit: a male wearing jeans, a dark top, a backpack, a
green cloth on his face, and a multicolor mask on top
of his head, in fear of imminent serious physical injury,
contrary to the statutes in such cases made and provided and against the peace and dignity of the State
of Oregon,
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

App.55a
COUNT 15
UNLAWFUL USE OF A WEAPON WITH A FIREARM
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
attempt to use, carry with intent to use and possess
with intent to use unlawfully against another person,
to wit: a male wearing tan pants, a blue jacket, and
a red shirt, holding an orange bottle, a firearm, a
dangerous and deadly weapon, contrary to the statutes
in such cases made and provided and against the
peace and dignity of the State of Oregon,
The state further alleges that during the commission of this felony, the defendant(s) used and
threatened the use of a firearm.
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 16
MENACING
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
and intentionally attempt to place another person, to
wit: a male wearing tan pants, a blue jacket, and a
red shirt, holding an orange bottle, in fear of imminent
serious physical injury, contrary to the statutes in
such cases made and provided and against the peace
and dignity of the State of Oregon,

App.56a
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 17
UNLAWFUL USE OF A WEAPON WITH A FIREARM
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
attempt to use, carry with intent to use and possess
with intent to use unlawfully against another person,
to wit: a female with dark hair, black top, and black
pants, a firearm, a dangerous and deadly weapon,
contrary to the statutes in such cases made and provided and against the peace and dignity of the State
of Oregon,
The state further alleges that during the commission of this felony, the defendant(s) used and
threatened the use of a firearm.
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

App.57a
COUNT 18
MENACING
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
and intentionally attempt to place another person, to
wit: a female with dark hair, black top, and black
pants, in fear of imminent serious physical injury,
contrary to the statutes in such cases made and provided and against the peace and dignity of the State
of Oregon,
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 19
UNLAWFUL USE OF A WEAPON WITH A FIREARM
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
attempt to use, carry with intent to use and possess
with intent to use unlawfully against another person,
to wit: a male wearing a blue hooded top, dark pants,
and a black messenger bag, a firearm, a dangerous
and deadly weapon, contrary to the statutes in such
cases made and provided and against the peace and
dignity of the State of Oregon,
The state further alleges that during the commission of this felony, the defendant(s) used and
threatened the use of a firearm.

App.58a
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 20
MENACING
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
and intentionally attempt to place another person, to
wit: a male wearing a blue hooded top, dark pants,
and a black messenger bag in fear of imminent
serious physical injury, contrary to the statutes in
such cases made and provided and against the peace
and dignity of the State of Oregon,
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.

COUNT 21
DISORDERLY CONDUCT IN THE SECOND DEGREE
The said Defendant(s), MICHAEL AARON
STRICKLAND, on or about July 07, 2016, in the
County of Multnomah, State of Oregon, did unlawfully
and recklessly create a risk of public inconvenience,
annoyance and alarm, by engaging in fighting and
violent, tumultuous and threatening behavior, contrary

App.59a
to the statutes in such cases made and provided and
against the peace and dignity of the State of Oregon,
This count is a part of the same act or transaction as the conduct alleged in the other counts of this
charging instrument. This count is of the same and
similar character as the conduct alleged in the other
counts of this charging instrument.
Dated at Portland, Oregon, in the county aforesaid, on AUGUST 03, 2016.
A TRUE BILL
/s/ Stephen Kent
Foreperson of the Grand Jury
Rod Underhill (883246)
District Attorney
Multnomah County, Oregon
Security Amount (Def-STRICKLAND) Bail increased
to $250,000 by Judge Bottomly on July 08, 2016.

AFFIRMATIVE DECLARATION
The District Attorney hereby affirmatively
declares for the record, as required by ORS 161 564,
upon the dale scheduled for the first appearance of
the defendant, and before the court asks under ORS
135 020 how the defendant pleads to the charge(s),
the State’s intention that any misdemeanor charged

App.60a
herein proceed as a misdemeanor KATHARINE
MOLINA OSB 123989 //klw
Pursuant to 2005 Or Laws ch 46 sections 1 to 7,
20(1) and 21 to 23, the State hereby provides written
notice of the State’s intention to rely at sentencing on
enhancement facts for any statutory ground for the
imposition of consecutive sentences codified under ORS
137.123 on these counts or to any other sentence which
has been previously imposed or is simultaneously
imposed upon this defendant.

